<html>
<title> - THE YEAR 2000 COMPUTER PROBLEM IMPLICATIONS FOR INTERNATIONAL TRAVEL</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
  THE YEAR 2000 COMPUTER PROBLEM IMPLICATIONS FOR INTERNATIONAL TRAVEL

=======================================================================

                             JOINT HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                                and the

                       SUBCOMMITTEE ON TECHNOLOGY

                                 of the

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 15, 1999

                               __________

                     Committee on Government Reform

                           Serial No. 106-54

                          Committee on Science

                           Serial No. 106-52

                               __________

   Printed for the use of the Committee on Government Reform and the 
                          Committee on Science


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California

          J. Russell George, Staff Director and Chief Counsel
                  Matthew Ryan, Senior Policy Director
    Bonnie Heald, Communications Director/Professional Staff Member
                          Chip Ahlswede, Clerk
                    Trey Henderson, Minority Counsel



                          COMMITTEE ON SCIENCE

       HON. F. JAMES SENSENBRENNER, Jr., (R-Wisconsin), Chairman

SHERWOOD L. BOEHLERT, New York       RALPH M. HALL, Texas, RMM**
LAMAR SMITH, Texas                   BART GORDON, Tennessee
CONSTANCE A. MORELLA, Maryland       JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            JAMES A. BARCIA, Michigan
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
JOE BARTON, Texas                    LYNN C. WOOLSEY, California
KEN CALVERT, California              LYNN N. RIVERS, Michigan
NICK SMITH, Michigan                 ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         MICHAEL F. DOYLE, Pennsylvania
VERNON J. EHLERS, Michigan*          SHEILA JACKSON-LEE, Texas
DAVE WELDON, Florida                 DEBBIE STABENOW, Michigan
GIL GUTKNECHT, Minnesota             BOB ETHERIDGE, North Carolina
THOMAS W. EWING, Illinois            NICK LAMPSON, Texas
CHRIS CANNON, Utah                   JOHN B. LARSON, Connecticut
KEVIN BRADY, Texas                   MARK UDALL, Colorado
MERRILL COOK, Utah                   DAVID WU, Oregon
GEORGE R. NETHERCUTT, Jr.,           ANTHONY D. WEINER, New York
    Washington                       MICHAEL E. CAPUANO, Massachusetts
FRANK D. LUCAS, Oklahoma             BRIAN BAIRD, Washington
MARK GREEN, Wisconsin                JOSEPH M. HOEFFEL, Pennsylvania
STEVEN T. KUYKENDALL, California     DENNIS MOORE, Kansas
GARY G. MILLER, California           VACANCY
JUDY BIGGERT, Illinois
MARSHALL ``MARK'' SANFORD, South 
    Carolina
JACK METCALF, Washington


                       Subcommittee on Technology

               CONSTANCE A. MORELLA, Maryland, Chairwoman
CURT WELDON, Pennsylvania            JAMES A. BARCIA, Michigan**
ROSCOE G. BARTLETT, Maryland         LYNN N. RIVERS, Michigan
GIL GUTKNECHT, Minnesota*            DEBBIE STABENOW, Michigan
THOMAS W. EWING, Illinois            MARK UDALL, Colorado
CHRIS CANNON, Utah                   DAVID WU, Oregon
KEVIN BRADY, Texas                   ANTHONY D. WEINER, New York
MERRILL COOK, Utah                   MICHAEL E. CAPUANO, Massachusetts
MARK GREEN, Wisconsin                BART GORDON, Tennessee
STEVEN T. KUYKENDALL, California     BRIAN BAIRD, Washington
GARY G. MILLER, California

                               Ex Officio

F. JAMES SENSENBRENNER, Jr.,         RALPH M. HALL, Texas+
    Wisconsin+



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 15, 1999...............................     1
Statement of:
    Jhirad, David, Senior Advisor, Multilateral and Bilateral 
      Affairs, Department of Energy..............................    16
    O'Keefe, John, Special Representative for the year 2000, 
      Department of State........................................     7
    Wander, Elyse, senior vice president for planning and public 
      affairs, Travel Industry Association of America............    16
Letters, statements, etc., submitted for the record by:
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Jhirad, David, Senior Advisor, Multilateral and Bilateral 
      Affairs, Department of Energy, information concerning Y2K..    35
    O'Keefe, John, Special Representative for the year 2000, 
      Department of State, prepared statement of.................    10
    Wander, Elyse, senior vice president for planning and public 
      affairs, Travel Industry Association of America, prepared 
      statement of...............................................    19



  THE YEAR 2000 COMPUTER PROBLEM IMPLICATIONS FOR INTERNATIONAL TRAVEL

                              ----------                              


                     WEDNESDAY, SEPTEMBER 15, 1999

        House of Representatives, Committee on Government 
            Reform, Subcommittee on Government Management, 
            Information, and Technology, joint with the 
            Committee on Science, Subcommittee on 
            Technology,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:02 a.m., 
in room 2318, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the Subcommittee on Government Management, 
Information, and Technology) presiding.
    Present from the Subcommittee on Government Management, 
Information, and Technology: Representatives Horn, Biggert, 
Turner, Ose, and Walden.
    Present from the Subcommittee on Technology: Representative 
Morella.
    Staff present from the Subcommittee on Government 
Management, Information, and Technology: Russell George, staff 
director; Matthew Ryan, senior policy director; Chip Ahlswede, 
clerk; Bonnie Heald, communications director and professional 
staff member; P.J. Caceres and Deborah Oppenheim, interns; and 
Jean Gosa, minority staff assistant.
    Staff present from the Subcommittee on Technology: Jeff 
Grove, staff director; Ben Wu, professional staff member; Joe 
Sullivan, staff assistant; Trey Henderson, minority counsel; 
Michael Quear, professional staff member; and Marty Ralston, 
staff assistant.
    Mr. Horn. This joint hearing of the House Subcommittee on 
Government Management, Information, and Technology and the 
Committee on Science's Subcommittee on Technology will come to 
order.
    Over the past several years, these subcommittees have been 
prodding the Federal departments and agencies in the executive 
branch to prepare their computer systems for the year 2000. In 
only 107 days, these systems will be ready for action. The job 
is unquestionably difficult. The time is running short and the 
job is not done.
    Millions of Americans are awaiting the coming millennium as 
a time for celebrations. Airlines have begun offering 
millennium vacation specials. Families are beginning to plan 
how and where they will usher in the historic new year.
    We learned at our hearing with the Federal Aviation 
Administration last week that 35 countries have not yet 
provided information on their airport and airline readiness. 
This is of great concern. American travelers must have adequate 
information on destinations that may be vulnerable to 
widespread failures due to the year 2000 date change, whatever 
and wherever it is, whether it is domestic or international.
    Yesterday, the Department of State released consular 
information sheets for nearly 200 countries and territories. We 
received this information in the evening. Our staff and the 
staff of the General Accounting Office quickly reviewed a 
sample of information on 30 countries. In some instances, the 
information was disturbing.
    We found that many countries, including Brazil, China, and 
Egypt are at risk of serious year 2000 failures such as the 
loss of electricity, health care, and telecommunications.
    We found that India faces problems with its ports, as well 
as its electric power.
    Japan's health care programs, for example, are lagging 
behind other sectors of the Nation's economy, and the same is 
true about the United States.
    In addition, we found that several countries face potential 
banking and financial failures, despite the industry's best 
efforts to overcome this unique and worldwide computer 
challenge.
    We are not here today to take countries to task for their 
poor performance in solving their year 2000 computer problems. 
Rather, we want to provide the traveling public with 
information on the potential problems that could occur abroad.
    I am delighted with the panel we have this morning, and I 
think it is important to note that citizens must make prudent, 
informed decisions on when and where to travel over the 
upcoming holiday season. To do so, however, requires that the 
Federal Government provide timely and reliable information.
    Mr. Ose raised the question the other day when the FAA 
administrator was here that people make their travel plans now 
and in October. They don't wait until Christmas and the 
holidays in December.
    I now yield for an opening statement to the gentleman from 
Texas, Mr. Turner.
    [The prepared statement of Hon. Stephen Horn follows:]

    [GRAPHIC] [TIFF OMITTED]61205.001
    
    [GRAPHIC] [TIFF OMITTED]61205.002
    
    Mr. Turner. Thank you, Mr. Chairman. I'm glad to join you 
and Chairwoman Morella today to assess the progress the State 
Department and others have made in combatting the potential 
international impact of the Y2K problem.
    As we all know, Y2K rollover is a global problem, not just 
a domestic issue, and, since we live in an interdependent 
world, lagging Y2K preparations in other countries can affect 
the safety of U.S. citizens abroad, as well as our national 
political, economic, and security interests.
    While the United States has taken the lead in preparation, 
we certainly cannot merely afford to hope that the rest of the 
world is ready, too.
    To this end, I understand the State Department is actively 
engaged in a Y2K policy formulation with 16 Federal departments 
and agencies through the Y2K International Interagency Working 
Group, which seeks to preserve regional, political, strategic, 
military stability; safeguard our economic interests and 
military bases abroad to ensure operational readiness; protect 
our citizens abroad; and assess other countries' needs for 
external assistance in overcoming possible Y2K problems.
    Special efforts have been made to help these countries 
identify Y2K vulnerabilities and to ensure effective 
contingency planning.
    Overall, significant progress has been made on Y2K 
remediation and contingency planning worldwide; however, much 
remains to be done.
    Yesterday, the State Department released new consular 
information sheets which informed the American public of 
potential hazards to their health and safety occasioned by Y2K 
problems abroad.
    Today we will learn how these warnings are prepared, what 
they mean, and what remains to be done to safeguard our 
interests.
    Because the protection of U.S. citizens traveling and 
working abroad is the highest priority, we need to provide the 
public with our very best assessments of Y2K preparedness 
abroad so they can make responsible choices.
    I look forward to the testimony today, and I again 
compliment the chairman and Chairwoman Morella for their focus 
on this very critical issue.
    Thank you, Mr. Chairman.
    Mr. Horn. Well, I thank you for your very good opening 
statement.
    I now yield to the co-chairman of the task force on the 
year 2000, and the chairwoman of the Subcommittee on Technology 
of the House Committee on Science, Mrs. Morella, the 
gentlewoman from Maryland.
    Mrs. Morella. Thank you, Chairman Horn.
    I must say you do commence the meetings right on time, and 
I appreciate that, and thank you for your leadership, also, in 
crafting the plan for today's hearing. I think it is very 
important.
    As we move ever so closer to the January 1, 2000, deadline, 
the American people are demonstrating an increased desire to 
make their own determinations about the year 2000 computer 
problem impact upon their lives.
    Americans want to be individually empowered to choose their 
own course of action by being provided with as much Y2K 
information as possible. That's why I'm very pleased that the 
State Department has begun preparing country-by-country 
advisories to warn Americans living or traveling overseas about 
possible failures related to the year 2000 technology problem.
    Since the warnings detail how visiting Americans could be 
affected by power outages, water shortages, and other 
potentially serious Y2K problems in 194 countries, they give 
Americans, to the greatest extent possible, the best indication 
of where and what they should be doing as we usher in the new 
millennium.
    These reports will allow one to travel to various parts of 
the globe with confidence, even though there have previously 
been complaints about the difficulty in collecting adequate 
data from foreign governments about possible computer failures.
    I'm pleased that this important hearing on Y2K impact of 
international travel is being held this morning. And, although 
I must leave shortly to the House floor for consideration of my 
bill authorizing aviation research and development, including 
safety, I look forward to the testimony of our distinguished 
panel on this important issue, and I thank you, Mr. Chairman.
    Mr. Horn. Well, we thank you and we wish you well and 
success on the floor. Everybody has been a little tired last 
night when it worked at midnight, but good luck.
    I now yield to the gentlewoman from Illinois, Mrs. Biggert, 
who is the vice chairman of the Subcommittee on Government 
Management, Information, and Technology.
    Mrs. Biggert. Thank you, Mr. Chairman.
    I have no opening statement. I look forward to hearing from 
the witnesses.
    Mr. Horn. We thank you.
    And as to the witnesses, just let me explain the procedure. 
I know some of you have been before us before.
    We'd like you to summarize your statement, and at least 10 
minutes we'll give you for that. We've got a lot of comfort 
space this morning, since you're our only panel, and we want 
you to make your case as best you can, and that's very helpful 
to all of us.
    Sometimes the testimony comes in pretty late in the evening 
and it's hard for all Members to get through it, but the staff 
stay up all night and they've gone through it. So we're glad to 
see you.
    As you know, the other thing with this subcommittee is it 
is a subcommittee of the House Committee on Government Reform, 
and therefore all witnesses are sworn in as to their testimony, 
so if the three of you and anybody that is going to advise you 
during this hearing would stand up and raise your right hands, 
we'll give you the oath.
    We have five people assisting the witnesses and three 
witnesses.
    [Witnesses sworn.]
    Mr. Horn. We will assume you are now all confirmed and can 
speak with the truth.
    We're going to do this in the order in which they are on 
the agenda, and the first will be Mr. John O'Keefe, the special 
representative for the year 2000 for the Department of State.
    Welcome.

STATEMENT OF JOHN O'KEEFE, SPECIAL REPRESENTATIVE FOR THE YEAR 
                   2000, DEPARTMENT OF STATE

    Mr. O'Keefe. Thank you, Mr. Chairman.
    Mr. Chairman, Mrs. Chairwoman, and members of the 
committee, thank you for this opportunity to testify on behalf 
of the Office of the Under Secretary of State for Management on 
the Y2K phenomenon and the implications for international 
travel.
    The Department of State takes very seriously its 
responsibility to inform U.S. citizens traveling or residing 
abroad of potential hazards to their safety.
    In my testimony today, I will discuss some of our efforts 
to assess international Y2K readiness as we approach the 
millennium. In particular, I will review the process we used to 
develop Y2K data for our revised consular information sheets 
released on September 14th to the public. I will also report on 
the results of the September 9, 1999 test of our millennium 
rollover reporting plan conducted last week.
    Our consular information program, including public 
announcements and publications and dissemination of consular 
information sheets, has long served as the Department's primary 
means of alerting the public to potential problems they may 
encounter in different countries. It stands to reason, 
therefore, that we use this program to inform Americans of 
potential Y2K disruptions abroad.
    In January of this year, we began our effort to educate the 
traveling American public about the potential for year 2000 
related disruptions abroad. The Department issued a worldwide 
year 2000 public announcement. This January, public 
announcements alerted traveling Americans to the Y2K 
phenomenon, in general, and its potential to disrupt travel.
    We issued a followup public announcement in July. The July 
public announcement dealt with personal preparedness and 
apprised the public of measures we are taking at our embassies 
and consulates.
    Parallel to these announcements, the Department asked our 
missions abroad in January to engage their host country 
counterparts and other local experts to determine Y2K readiness 
in countries' key sectors, such as energy, emergency services 
and telecommunications, and to report their findings.
    In June, we combined the information from our posts with 
data obtained from public sources and from U.S. Government 
agencies to form a national Y2K consular information sheet 
paragraph for each country citing the country's overall 
preparedness for Y2K and its risk of potential disruptions.
    Our missions then shared the findings and the national 
paragraphs with host governments, explaining our responsibility 
to apprise U.S. citizens of potential dangers to their safety.
    After receiving feedback from host governments and 
assessing additional information, we drafted our final country-
specific Y2K assessments. They were, again, presented to host 
governments, many of whom took the Y2K issue more seriously in 
light of our findings.
    The assessments were also included in our updated consular 
information sheets.
    Yesterday, September 14th, the Department issued updated 
consular information sheets for every country in the world. 
Each revised consular information sheet contains a section 
assessing general Y2K risks and preparedness in a specific 
country.
    Our fundamental purpose for releasing this information is 
to apprise U.S. citizens of potential disruption they may 
experience due to the Y2K phenomenon and allow Americans to be 
better prepared and to make informed personal decisions about 
travel on or about January 1, 2000.
    The statements in the consular information sheets represent 
our best judgment on potential problems for U.S. citizens 
living and traveling abroad. It is not a score card. Please 
understand that no one can predict with certainty what will 
occur on or after January 1st. The information was gathered 
from a number of open and confidential sources. If you would 
like more-detailed information on how we came to these 
judgments, I would be pleased to provide a classified briefing 
on that process.
    In addition to these standard tools of the consular 
information program, we have raised Y2K awareness with the U.S. 
public through an outreach program, including speakers, media 
interviews, and publications.
    Our embassies, consulates, and U.S. regional passport 
agencies have supplemented these efforts with town meetings and 
newsletters.
    The Department of State Bureau of Consular Affairs will 
continue to provide the traveling public with updated, global 
Y2K status assessments on its home page at http://
travel.state.gov. This site also contains Y2K-related links to 
Websites of other U.S. Government agencies, international 
organizations, and foreign governments, as well as non-
governmental organizations such as the Red Cross, the 
GartnerGroup, and Global 2000.
    A key factor influencing our ability to support Americans 
abroad is the receipt of timely reporting from our overseas 
hosts.
    Last week, on September 9th, the Department tested its 
ability to gather, analyze, and disseminate global Y2K 
information in a timely and accurate manner. This test of the 
Department's millennium rollover reporting plan represented the 
most comprehensive worldwide Y2K reporting exercise within the 
U.S. Government.
    Because it was thought the digits 9/9/99 might cause minor 
computer malfunctions, September 9th represented a good 
opportunity to test our system's analytical capabilities and 
reporting processes.
    Beginning at 4 p.m., Washington time on September 8th, 163 
posts transmitted reports via a Web-based application and by 
cable to the State Department Information Y2K Center. Within 
the center, a monitoring group analyzed the raw data to produce 
status reports. The reporting mechanism focused on the local 
status of host country critical sectors, power, transportation, 
finance, water and waste water, emergency services, and 
telecommunications.
    The reporting was timely, the processing swift. Our 
worldwide reporting found no serious September 9, 1999 
problems. The mechanism for managing the information flow 
functioned well, though not perfectly.
    We will take lessons learned from the exercise to fine-tune 
our data-gathering process. This exercise provided a foundation 
upon which the Department can build to prepare for the January 
turnover.
    We will continue to coordinate our efforts with the 
Information Coordinating Center of the President's Council on 
Y2K and other U.S. Government agencies engaged in similar 
tracking of year 2000 events.
    This test also supplemented the work we have already done 
on contingency planning for our missions worldwide and the 
remediation in business continuity work our chief information 
officer has completed for the Department's mission-critical 
systems.
    In summary, I believe our missions abroad and agencies here 
have done an extraordinary job in raising awareness among 
governments of many nations and in working with them to prepare 
for the millennium. Our own house is largely in order. We stand 
ready to continue our day-to-day operations during the rollover 
here in Washington and at our embassies abroad. A Y2K task 
force will be on duty, backup communication systems in place, 
and the means of reporting events and of receiving instructions 
tested and functioning.
    We continue to work with other nations in preparing, 
testing, and coordinating.
    Mr. Chairman, this concludes my testimony. Thank you for 
the opportunity to speak to the subcommittee today. I will be 
happy to answer questions the Members may have.
    Mr. Horn. Thank you very much. We appreciate that 
testimony.
    [The prepared statement of Mr. O'Keefe follows:]
    [GRAPHIC] [TIFF OMITTED]61205.003
    
    [GRAPHIC] [TIFF OMITTED]61205.004
    
    [GRAPHIC] [TIFF OMITTED]61205.005
    
    [GRAPHIC] [TIFF OMITTED]61205.006
    
    [GRAPHIC] [TIFF OMITTED]61205.007
    
    [GRAPHIC] [TIFF OMITTED]61205.008
    
    Mr. Horn. Our next witness is Dr. David Jhirad, the senior 
advisor, multilateral and bilateral affairs for the Department 
of Energy.
    Dr. Jhirad.

  STATEMENT OF DAVID JHIRAD, SENIOR ADVISOR, MULTILATERAL AND 
            BILATERAL AFFAIRS, DEPARTMENT OF ENERGY

    Mr. Jhirad. Thank you very much, Chairman Horn and 
Chairwoman Morella, members of the committee.
    As the Department discussed with your staff earlier, we are 
here to answer any and all questions about the status of the 
energy and electricity sectors worldwide in our position in 
supporting the State Department and the International Working 
Group on Y2K in the government.
    We do not have a formal statement at this time, but the 
Department would like to volunteer to make a statement for the 
record available after the hearing, but we certainly are here 
to answer any of the Members' questions about the energy and 
electricity sectors and how their vulnerability might affect 
other infrastructure areas.
    So I'm really here as a resource person to support my 
colleagues at the Department of State and to support your 
committee, and we will submit a formal statement for the record 
if you so wish.
    Mr. Horn. Well, thank you very much. Actually, the question 
and answer dialog is what we prefer, so that's fine with us.
    We now move to Ms. Elyse Wander, who is the senior vice 
president for planning and public affairs, Travel Industry 
Association of America.
    Ms. Wander.

 STATEMENT OF ELYSE WANDER, SENIOR VICE PRESIDENT FOR PLANNING 
   AND PUBLIC AFFAIRS, TRAVEL INDUSTRY ASSOCIATION OF AMERICA

    Ms. Wander. Mr. Chairman, Madam Chairwoman, members of the 
committee, good morning. My name is Elyse Wander. I'm the 
senior vice president, planning and public affairs, for the 
Travel Industry Association of America, more commonly known as 
TIA.
    TIA is a nonprofit association representing all components 
of the $502 billion U.S. travel industry. Our mission is to 
promote and facilitate increased travel to and within the 
United States.
    I'm here to testify on the year 2000 computer problem as it 
relates to travel. Y2K is of great concern to the travel and 
tourism industry. I want to assure the members of the committee 
that the safety and security of domestic travelers and 
international visitors to the United States is the top priority 
of the U.S. travel industry today and in year 2000 and beyond.
    TIA just yesterday announced a new program aimed at 
marketing and promoting the United States as the premier travel 
destination in the world. We hope the emphasis the U.S. travel 
industry has placed on Y2K readiness will reassure 
international travelers that the United States will be a safe 
and secure destination this millennium holiday and beyond.
    I would like to take a few moments to share with you the 
results of a recently concluded survey that shows U.S. 
travelers believe the industry has done a good job to ensure 
the Y2K problem will not affect travel in the United States 
this millennium holiday.
    TIA conducted a survey of 1,500 U.S. adults. The results of 
the survey have not yet been published. That will happen later 
this month, so I have a preview for you.
    The findings will show that 24 percent of U.S. adult 
travelers are very or somewhat likely to travel for this New 
Year's holiday. Many plan to travel by car, and many will stay 
in a hotel, motel, or bed and breakfast.
    Three out of five New Year's travelers plan to use their 
personal vehicle.
    A third of New Year's travelers plan to travel by airplane.
    Interestingly, those planning to travel by car have a 
greater fear that Y2K-related problems will affect their travel 
than those planning to travel by plane over the new year.
    These statistics may suggest that municipal governments and 
State governments, State transportation departments, need to do 
a better job of communicating that U.S. communities are 
prepared for the millennium holiday travelers.
    The survey statistics also indicate that the airline 
industry is doing a good job in keeping the public informed of 
its progress and Y2K readiness.
    The airlines have invested a lot of money and manpower to 
ensure their industry is compliant, and they've also done a 
great job in issuing periodic reports on their status, one as 
recently as last week.
    Let's talk for a moment about travel agents, because they 
are the consumer's preferred means for making airline 
reservations and obtaining information about air fares and 
schedules.
    More than 100,000 travel agencies that book around 80 
percent of all world travel depend on the computer reservation 
system companies, or CRS companies. The good news that we've 
obtained is that neither the large CRS companies nor any major 
airlines have reporting significant problems with the year 2000 
rollover that they conducted earlier this year.
    Now for a word or two on the lodging industry.
    Of likely New Year's travelers, 44 percent intend to stay 
at a hotel, motel, or bed and breakfast, according to the 
results of the TIA survey. The American Hotel and Motel 
Association [AHMA], has prepared a Y2K compliance guide for its 
members. AHMA has also provided the public and its members with 
links to Y2K status of products and computer systems, so we see 
a trend here of the work being accomplished and the consumers 
being informed about where things stand.
    TIA's survey shows that 61 percent of those surveyed said 
they're not at all likely to travel for the New Year holiday; 
however, only 5 percent claim fear of potential Y2K problems as 
a reason for not traveling. And, of all those surveyed, only 7 
percent felt that Y2K would cause major problems for travelers 
over the New Year's holiday weekend. Two-fifths of respondents 
felt that Y2K would cause some minor problems for New Year's 
travelers, while another one-fourth felt Y2K would not cause 
any problems for travelers.
    So what does all this tell us? The survey results show that 
U.S. travelers believe the travel industry in the United States 
has done a good job in preparing for January 1, 2000, and the 
industry has effectively communicated that the United States 
will be a marvelous place to usher in the new millennium.
    The confidence of our survey's respondents reflects in 
great part on the hard work and dedication of this committee. I 
want to assure the members of the committee that we will remain 
vigilant on this issue, just as I am sure members of the 
committee will continue to work toward our common goal of 
safety and security of United States and worldwide citizens.
    Thank you very much for this opportunity to testify before 
you today. I'd be happy to supplement my testimony with answers 
to any questions you may have.
    Mr. Horn. Well, we thank you. That's a very helpful 
statement, and we're delighted that you have those surveys to 
show us.
    [The prepared statement of Ms. Wander follows:]
    [GRAPHIC] [TIFF OMITTED]61205.009
    
    [GRAPHIC] [TIFF OMITTED]61205.010
    
    [GRAPHIC] [TIFF OMITTED]61205.011
    
    [GRAPHIC] [TIFF OMITTED]61205.012
    
    [GRAPHIC] [TIFF OMITTED]61205.013
    
    Mr. Horn. We are now going to begin the round of questions. 
Each Member will be limited to 5 minutes, and we'll have a 
second round or a third or a fourth, but that way it spreads it 
to everybody on both sides of the aisle.
    So I'll first yield to the co-chairman of the task force, 
the gentlewoman from Maryland, Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman. I'm glad I was here 
to hear the testimony, since the Defense conference report was 
coming up before the FAA research and development bill, and I 
find it to be very valuable, because we have been very 
concerned about overseas travelers and very concerned about the 
power industry and energy power grids, and we've been very 
concerned about the travel agencies and what you say to people 
when they come for booking for flights, as well as hotel 
reservations.
    I'm looking at the chart, and, of course, I can remember 
hearing that, for instance, Polish Airlines said they weren't 
going to fly at all. Remember when China Airlines said they 
were going to put all their executives and their government 
people in the air? I thought, ``What a way to have a coup in a 
country.'' And now to see these reports, I'm curious, Mr. 
O'Keefe, what was the process that the State Department used to 
collect the data?
    Mr. O'Keefe. Yes, Madam Chairwoman, we used the information 
from, as I mentioned, all sources that were available to us.
    The first cut was last November/December, when we had a 
list of specific questions we asked our embassies to address to 
the host government. At the same time, there were other 
agencies in government which were also doing analysis on Y2K.
    As we moved into June, we've taken all the information that 
our embassies have provided, combined that with other agency 
information, and especially with open source information--
Global 2000, GartnerGroup, those other organizations that were 
providing information--as well as international organizations, 
and distilled it into paragraphs and presented it to the host 
government.
    There were two points to this. One is that our primary 
responsibility is to the safety of U.S. citizens who are living 
or traveling abroad. We must protect those citizens.
    There are two ways to do it. One is, of course, to advise 
them of potential hazards, which we have done. The other is to 
work with host governments to make sure that those hazards are 
diminished as much as possible, and that consultation with 
governments was as much to get the feedback as to get some 
action on their part in terms of transparency, contingency 
planning, and things like that.
    So, basically, we looked everywhere we could for the 
information--governments around the world, other sources, our 
own agencies around town.
    Mrs. Morella. A major reliance was the self-reporting, 
though, wasn't it?
    Mr. O'Keefe. The self-reporting by?
    Mrs. Morella. Reporting by the countries.
    Mr. O'Keefe. No, ma'am. I would say that that was----
    Mrs. Morella. Was there verification? Maybe you----
    Mr. O'Keefe. I would say verification. So, for example, if 
one of our embassies was asking questions about--to the host 
government about particular sectors, they were also instructed 
to check with the American Chamber of Commerce and with other 
organizations that would rely on various sectors.
    So, again, for example, if you ask the telecommunications 
industry what they thought about the power industry, you would 
get one kind of answer, and that would be different both from 
the Government and what the power industry, itself, might tell 
you, so there was a lot of cross checking.
    Mrs. Morella. When you found that there was a discrepancy 
with regard to the sources that you used, as compared to what 
the governments had said, how did you handle that? Did you just 
put it down as your report or did you in some way get back to 
them and say this is what this is going to mean in terms of 
liabilities or consequences, or we want to help? Was there a 
followup?
    Mr. O'Keefe. If there was a discrepancy between what we 
found and what the host government found, our first 
responsibility was, of course, to our citizens, and so for 
discrepancies ultimately we would rely on our own sources of 
information. And we did have assistance from other agencies in 
government in helping us sort out all these mounds of 
information.
    Mrs. Morella. You expect they are going to be changing the 
information that you have from the countries? Will you be 
updating at a certain point? Do you have a deadline?
    Mr. O'Keefe. Yes, ma'am. We will be continuously updating 
it, and there are some events that are coming up over the next 
few months. Mr. Jhirad probably can give you more detail, but 
there is an International Energy Agency Contingency Planning 
Conference coming up in October, which will cover Eastern 
Europe and Western Europe, and I believe that there will be a 
lot of good data that will come out of that that will help with 
informing the United States public.
    Mrs. Morella. Dr. Jhirad, your area is the one--one of the 
areas where we have the greatest amount of concern, 
particularly when we know what is happening or not happening in 
Russia or the Ukraine.
    Have you worked with IAEA of the United Nations, 
International Atomic--has that been part of the work you've 
done?
    Mr. Jhirad. Yes. We've worked both with the International 
Energy Agency in Paris, which is the 24 members of the OECD and 
includes all of the advanced industrial countries, as well as 
with the IAEA on specifically nuclear reactor issues. And, with 
the IAEA, we have sponsored a series of regional conferences on 
the state of readiness, remediation, and contingency planning 
in the major regions of the world.
    We are now moving from the information exchange and 
diagnostic phase to a much more hard-edged contingency planning 
phase, and, in fact, we will be having, in--well, about a month 
from now, in Prague, a meeting with some of the grid operators 
and power plant operators in Russia, Ukraine, Eastern and 
Central Europe, because, quite clearly, our concern is about 
these inter-connected power grids, about the gas transport from 
Russia into Western Europe, particularly Italy, and also there 
is the issue of transit countries, like Ukraine, which is quite 
vulnerable to Y2K breakdowns in the electric power sector.
    So these workshops hopefully will give us a little more 
ground truth about precisely what contingency plans have been 
made.
    I would just offer that when we had a workshop in Russia in 
early July, that very little evidence was presented of either 
testing or contingency planning, so there was cause for 
concern, and we are now moving to the stage of having the 
outcome of this meeting be what specific contingencies could 
occur, what will be the magnitude, what will be the duration, 
what kind of area will it affect, and what are the backup 
plans. Is there diesel backup to run the power stations? Is 
there backup to run the telecommunication systems? Those are 
the kinds of things that we'd like to get out of this next 
series of workshops.
    Mrs. Morella. Keep us posted.
    Ms. Wander, sorry I didn't get to you.
    I just want to mention to the chairman and the members of 
the subcommittee, I think we are one of the few legislative 
bodies that has been so much involved with Y2K, because, as 
I've traveled to other countries, they don't know what we're 
talking about, quite frankly, very hazy.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you very much.
    I now yield to the gentleman from Texas, Mr. Turner, the 
ranking member. Five minutes for questioning.
    Mr. Turner. Thank you, Mr. Chairman.
    Dr. Jhirad, I would like to ask you to describe for us, 
just by way of background--we always hear a lot of talk about 
failure in the energy sector, power grids failing. Educate us a 
little bit about the reason for potential failures. What is 
actually going on in the power grids that may create problems 
and give us a sense of what we should be worried about or what 
we are worried about?
    Mr. Jhirad. There are two things we should be worried about 
with power grids. One major area of vulnerability is what is 
known as the supervisory control and data acquisition systems, 
the SCDA systems, which take information from the individual 
power plants into a kind of central control system--these are 
essentially the central nervous systems of the power grids--and 
are then able to dispatch the power plants in a certain order.
    So this is really the control function for the whole power 
grid that we are concerned about, both with respect to 
computers in them that have embedded chips that might not be 
Y2K compliant, as well as the software.
    If those systems fail, then the grid will have to be 
manually operated. People will have to get on the phone or 
radio communication and give instructions to power plant 
operators about how they should operate the plant, so there is 
a manual backup provision provided there is a 
telecommunications system.
    If the telecom system goes down because there isn't power 
to run it and there is no backup diesel fuel, then even manual 
backup becomes tough.
    So, one area of concern in a power grid is that central 
control system that dispatches the power plants.
    The second area refers to the relationship between nuclear 
plants and the grid. Most nuclear plants are programmed to shut 
down if there is a variation in the grid voltage or the grid 
frequency, and, sensing a variation, they will shut down, and 
once they shut down they will de-link from the grid and you 
will lose even more power, so that an initial blackout or 
brownout could be amplified and could be made worse by a plant 
shutting down.
    The danger that there might be a serious nuclear accident 
is considered very minimal. In fact, more the concern is the 
plant shutting down because the grid is unstable.
    So those are the two key areas in power grids to watch very 
carefully.
    Mr. Turner. So you have no serious concern about any 
nuclear disaster at a power plant because of failure of the 
computer system?
    Mr. Jhirad. That's the evidence that we're getting, that we 
should not be concerned about a serious power plant accident.
    The real concern is whether those power plants can be 
operated with either diesel fuel, because those power plants 
will still need to have their cooling systems operate, because 
they're constantly producing heat, so it will be important to 
have enough supplies of diesel fuels, for example, in Russia 
and Ukraine to run the plants should they disconnect.
    But that's the concern more than the probability of a 
serious reactor accident.
    Mr. Turner. For a country that is not prepared, does not 
have contingency plans to operate--address either of the 
problems you mentioned. I guess the result could be a brownout 
or a blackout that would last for an extended period of time?
    Mr. Jhirad. That's correct, Congressman Turner. The length 
of the blackout, of course, is uncertain, and how long they 
could last--they would have to bring in auxiliary supplies of 
fuel--this could range anything from a few hours to a few days, 
and it could be scattered geographically.
    But one of the things that we're trying to get a handle on 
in these meetings between now and December is precisely what is 
the worst credible case that could happen, how long would the 
blackout be, and over what region. That's the kind of 
information we haven't really received yet.
    Mr. Turner. Are there other potential Y2K problems or 
potential disruptions that may occur in the energy sector other 
than the electrical grids failing? Do we have other types of 
problems relating to energy?
    Mr. Jhirad. Yes. There are two other sectors, one is gas 
and the gas network. Many of the gas transmission systems are 
run with compressors that use power from the power grids. Some 
of them generate their own power. But if a power grid goes 
down, there's a chance that the compressors that pump the gas 
will not work and the gas will not be pumped.
    Now, in the case of gas, there is storage. Many countries 
have several days of storage of gas. Germany has 3 months of 
storage. So it's not as critical. Electricity is more critical 
because it is a just-in-time industry; gases have some buffers 
in the system.
    The third area which we are well equipped to deal with is 
the oil market, and, again, the probability of any significant 
disruption--and this is from all the information we get from 
our own industry and from State oil companies--is considered 
very minimal. Again, there is plenty of oil in private 
inventories, in strategic petroleum reserves, in tankers on the 
high seas, so, again, it is an industry with a lot of buffers 
in it, so if there were any Y2K-related glitches or disruption, 
the industry feels that measures are available to handle it, 
but the risk of disruption is considered pretty low.
    Mr. Turner. We had been told a few weeks ago that there may 
be a problem with international shipping that could disrupt the 
movement of oil tankers. Are you familiar with that potential 
problem?
    Mr. Jhirad. Yes, we are, even though we have not been 
intimately involved with that aspect of it, but certainly 
members of the Department have been working with the Coast 
Guard, which has the lead in doing port readiness exercises in 
the United States, and hopefully some of the major oil 
exporters would adopt those same exercises.
    Mr. Turner. Thank you.
    Mr. Horn. I now yield 5 minutes for questioning to the vice 
chairman of the Subcommittee on Government Management, 
Information, and Technology, Mrs. Biggert, the gentlewoman from 
Illinois.
    Mrs. Biggert. Thank you, Mr. Chairman. Thank you for having 
this hearing.
    Mr. O'Keefe, what means are you using to communicate with 
American citizens abroad, and what contingency plans are there 
in case the regular telecommunications are disrupted?
    I'm thinking not only of those that live abroad, but let's 
say somebody is traveling over there and there is a glitch. 
Would you have a way to reach them?
    Mr. O'Keefe. It is a very serious problem. The normal means 
obviously is the Website that we have and the 800 number that 
citizens can call in and get information.
    Each embassy has been required to develop a contingency 
plan, both for its operation and the American citizen services 
section, so they have a warden system which tends to be a 
telephone tree kind of warden system, often using faxes to 
hotels.
    We've asked that they take a look at that warden system and 
their means of communication to other citizens and look for 
backup means of doing it.
    If, in fact, as Dr. Jhirad said, you have a power problem, 
you are probably going to have a telecommunications problem 
eventually, and, in going over this alternative means, 
obviously, in a city you can courier the information around to 
the hotels.
    For those citizens who are spread out in the countryside, 
there are ham radio operators, and taking a look at that, and 
there are--which is actually more effective--cooperation with 
the host government in providing use of their emergency radio 
nets to transmit.
    The other means we have, of course, is Voice of America, 
and so people who have transistor radios can pick that up, and 
often people who are sort of way out in the boondocks will have 
that alternate means of communication.
    Mrs. Biggert. Well, would you expect that--what would you 
tell them if there is a power outage? What kinds of things 
would be suggestions for what to do?
    Mr. O'Keefe. Well, the warden network would be activated if 
there is risk to U.S. citizens and if we felt that U.S. 
citizens should leave the country, and the information would be 
dependent on conditions in the country.
    But, for example, if, in fact, we found conditions had 
deteriorated, that we were recommending that U.S. citizens 
depart the country, there would be information about sites 
where they could go to get the transportation to move out of 
the country.
    We work very closely with--obviously, with the military on 
some of these kinds of evacuations, or with commercial 
carriers.
    Mrs. Biggert. I think probably one of the most frustrating 
things about traveling is waiting and not knowing how long you 
are going to have to wait. So I would imagine that if 
communication could be improved--they're working on the power 
and it probably will be restored within 3 days or something 
would be helpful. Would that be the kind of communication that 
would also be made?
    Mr. O'Keefe. I think that would be appropriate. If there 
is--hopefully, would be that kind of predictability to it.
    Mrs. Biggert. Is there an international sector that 
represents the greatest potential for failure? Maybe you could 
answer that or maybe Dr. Jhirad would know.
    Mr. O'Keefe. Well, I do--as we walk through these issues, 
the sector that always looks most vulnerable is the power 
generation distribution system, just because of the--it tends 
to be more technological. Even in a country that doesn't have a 
lot of technology, it's one sector that does tend to have a 
certain amount into it as the telecommunications, but I would 
say Dr. Jhirad has the toughest sector, and I'm glad he's here.
    Mrs. Biggert. OK. Ms. Wander, you said that 24 percent of 
American citizens are planning on traveling during this period 
of time. Do you have a breakdown about how many are planning 
international travel?
    Ms. Wander. No, I don't, Congresswoman. Consistent with 
TIA's mission, we are interested in bringing visitors to the 
United States and pay little attention to the outbound volumes.
    Mrs. Biggert. I would suppose that the other factor in that 
would be to know if travel has decreased, even though people 
might say that they're not concerned about Y2K, if more people 
are staying home this year, that would be a factor or not.
    Ms. Wander. I can speak domestically, and we've taken a 
look at advanced bookings, both for the holiday season and 
early into the first part of year 2000, and they look about--
depending on the segment, they look about the same as they were 
for this year, and in some cases slightly above, so so far we 
are not seeing a dropoff.
    Mrs. Biggert. Thank you.
    I see my time is up. Thank you, Mr. Chairman.
    Mr. Horn. We thank you.
    And now I turn to the gentleman that started all of this 
last week when he asked a question about the travel plans for 
the individuals not waiting until December or January, but the 
one's that plan now, and that's why this hearing has resulted, 
and, of course, we started with Mr. Ose's questions to the FAA 
administrator, so I'm now delighted to recognize for 5 minutes 
the gentleman from California, Mr. Ose, for questioning.
    Mr. Ose. Thank you, Mr. Chairman.
    Just an aside for my colleague from Illinois, the typical 
amount of cancellations over the New Year's holiday for 
domestic travel headed outward is about 10 percent, and right 
now preliminary indications are that the cancellations are 
running at about a 20 percent level, so it's about twice the 
normal level.
    Mr. Chairman, I want to thank you for sharing with us the 
list of the 35 countries who have not responded to our 
circular, but I want to followup, more interestingly, on the 
information sheets that were provided this morning.
    I don't mean to be--I don't mean to diminish the travel we 
get from other countries, but, as I look at a map, I'm 
particularly concerned about countries with whom we do a lot of 
business or a lot of travel, and I start with Canada and 
Mexico.
    Travel to Canada, according to this report, looks to be a 
low risk, which would be on page three, and Mexico--I saw it 
here a moment ago--on page nine appears to also be a low risk. 
Is that consistent with the understanding that each of you 
have?
    Mr. O'Keefe. Mr. Congressman, yes, sir, that is consistent, 
and I would say, in particular, with Canada and Mexico we have 
both bilateral and trilateral activities that go on all the 
time. In fact, with Canada there are 11 sectors that meet on a 
regular basis to do joint contingency planning and also to 
share information on how they've gone about preparing for the 
millennium. And with Mexico, largely the same situation.
    Dr. Jhirad mentioned the port exercises that the Coast 
Guard had conducted. The Mexicans joined the Coast Guard in New 
Orleans for the oil exercise, and that's just one example. 
There's been a lot of work, as I understand, between United 
States Customs and Mexican Customs because of the great amount 
of material that transits the California border, Texas, 
Arizona, and New Mexico.
    And so it is probably--because they're our neighbors, they 
are two countries where the dialog has been early and often. We 
started that last December.
    Mr. Ose. Let me jump shift then to trading partners with 
whom we have a very great amount of commerce--for instance, 
Japan and Germany and the growing trade we have, for instance, 
with China. Japan and Germany are highly industrialized and, 
according to the report, have made significant progress, but, 
for instance, China remains somewhat problematic at this point.
    Can you provide any input on that?
    Mr. O'Keefe. Well, just in general, APEC has finished its 
leaders' meeting last week in New Zealand, and in the closing 
statement it was agreed that all the APEC countries, including 
China, would adopt a 100-day program on preparedness for Y2K 
and regional contingency planning.
    The Chinese, as well as other APEC countries, have joined 
in an activity which is a tool kit which identifies cross-
border dependencies that might be affected by Y2K. It could be 
strategic minerals like petroleum, or it could be connected 
power grids. And the Chinese are participating, as well as the 
Japanese.
    Again, for Japan and Germany there's a G8 Contingency 
Planning Conference next week in Berlin, and part of that 
conference is a workshop on contingency planning, obviously. 
The Japanese are leading the energy sector, and Dr. Jhirad has 
been in contact with his Japanese colleagues on this.
    The United States is doing transportation, Canada is doing 
telecommunications, and the U.K. is doing federal and regional 
government.
    But, as part of that overall activity, we'll be working 
with our fellow G8 members to take a very close look at what 
next steps and additional steps we all need to take.
    Mr. Ose. Well, let me go back then to the People's Republic 
of China.
    This report here on the Consular information sheets 
indicates that ``there may be a risk of disruption in the key 
sectors of finance, telecommunications, medical services, and 
in the electric power and infrastructure systems outside of the 
coastal cities.'' That's a fairly large problem area, if you 
will, and I am most attuned to the consequences.
    We do have a lot of, for instance, recreational travel 
there. We have a burgeoning commercial sector with China. I'm 
not sure what we're going to be able to accomplish in 100 days, 
if you will. Maybe China is different than some of the western 
countries.
    Mr. O'Keefe. In terms of remediation, 100 days isn't a lot 
of time. In terms of contingency planning, that is a fairly 
substantial amount of time, especially in a country where, in 
terms of human resources, the number of people you can throw at 
a problem is very substantial.
    And also I think--and I'm no expert in this, but I believe 
the level of technology varies region by region.
    You also--and not just China, but any country, one has to 
try to think about not simply disruption, but how long a 
disruption has to go on before it really affects United States 
national interest.
    So if, in fact--this is for travelers, and travelers really 
need to know if they are going to be without power for 24 hours 
or they can't get money from an ATM machine or the local bank 
has a currency shortage for several days. That does not mean 
that U.S. national interest and trade would necessarily be 
affected.
    If the lights go out for 24 hours, let's say in Beijing, 
that doesn't affect United States national interest and it 
probably will not affect the Chinese economy.
    The hard part about this, frankly, is it is hard to tell 
what the duration is going to be, and our objective, just as 
you have pointed out, is to work with countries on joint 
contingency planning and in trying to make sure that these 
problems are mitigated as much as possible.
    And, again, the Chinese did join the Coast Guard in Oakland 
for the test in Oakland, and they have indicated that they 
would like to have further cooperation with port operations, so 
we're seeing them step out and working with us.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Horn. Thank you.
    Before I turn to Mr. Walden to begin the second round, I 
want to exercise my own 5 minutes.
    Mr. O'Keefe, I'm just curious. We've taken a look at the 
Website of the United Kingdom and their travel advisories, and, 
for example, the State Department reports--you report that, in 
terms of Ukraine, they may be unprepared for Y2K. However, the 
United Kingdom, in its Website, tells its citizens, ``not to 
travel in the Ukraine.''
    Are we afraid to issue strong warnings about that, or does 
the United Kingdom not really have the picture and we do, or do 
we not have the picture?
    Mr. O'Keefe. Mr. Chairman, I'm glad you swore in Mr. 
Herbert, who is sitting behind me, because he is here to take 
the hardest questions, and so----
    Mr. Horn. OK.
    Mr. O'Keefe. But before I turn to Mr. Herbert, who can go 
over the travel warning piece, you heard earlier about the 
conference on the electric power grid that's going to occur in 
October. The Ukraine is joining in that, and I think we are 
going to have much better information at that point.
    So, while our judgments and the U.K.'s judgments differ 
slightly in terms of specific information about traveling to a 
place, we will be updating that information as we move along.
    But if you will allow me, I will turn to Mr. Herbert.
    Mr. Horn. Please go ahead, and then I'd like Dr. Jhirad to 
get into this.
    Welcome, Mr. Herbert.
    Mr. Herbert. Thank you, Mr. Chairman.
    We were aware that the U.K. had a slightly different view 
than we did on the Ukraine. I think our consular information 
sheet does indicate the potential for failures in a number of 
sectors in the Ukraine. We just didn't determine at this point 
that a travel warning was quite yet justified.
    We do do a travel warning on any country where we do feel 
it would be unsafe for Americans to go to. As of yesterday, 
when we released this, we weren't convinced that it was timely 
to say, ``Do not go to Ukraine at this time.'' But certainly we 
are aware of the British concerns and our own concerns, and if 
we reach the same conclusion we will certainly issue a travel 
warning.
    We do these routinely throughout the year whenever a 
situation develops in a country in which we feel it is unsafe 
for American citizens to be there, and we will certainly do 
that on the Ukraine or any other country between now and 
January 1st where it is determined that it would be unsafe to 
be there.
    Mr. Horn. Well, I guess we're safe when the Ukrainian 
caucus delegates from this House meet with the Kiev Parliament, 
and that's the end of November, so I guess we're safe at this 
point.
    Let me ask the gentleman from the Energy Department, in 
terms of looking at nuclear reactors, which has been a major 
interest to this subcommittee, in terms of the relationships 
between the ones in Ukraine and the ones in Russia, is there 
any problem at all in terms of the grid? And is that grid 
between Ukraine and Russia fairly traditional in the sense of 
what we have in the United States between Canada, the United 
States, and various regions within the United States? I'm just 
curious about that.
    Mr. Jhirad. Thank you, Mr. Chairman.
    Well, until about December of last year, Ukraine was buying 
power from Russia. They have a grid connection. The Russians 
are not selling them any power right now because they weren't 
paying for it, so that grid is not really functioning in 
anything remotely like the United States/Canadian situation 
right now. The second point you raised--but that's an important 
point if Ukraine has power problems, the possibility of getting 
power from Russia.
    The second issue you raised is the one of serious concern, 
which is that Ukraine already has a lot of power outages. It 
has very little excess capacity. Unreliability is occurring all 
the time. So they don't have any margin, any reserve margin, 
any cushion if one of their nuclear plants has to be taken out 
of the grid.
    The U.S. Government is currently funding a team of utility 
experts from the Southern California Edison Co. and from 
Pacific Northwest Labs to do a solid assessment of what the 
problems are in the electric power grid in Ukraine and what the 
contingencies could be in terms of real numbers--how long, how 
serious, and so forth.
    Mr. Horn. In the judgments made by the Department of 
Energy, is there any relationship and interaction between 
Energy and our own Nuclear Regulatory Commission, or is this 
strictly done within the Department of Energy?
    Mr. Jhirad. There has been a lot of interaction with the 
Nuclear Regulatory Commission on this. The Department of 
Energy, with funds from USAID, has a program to train reactor 
operators in Ukraine in some of the mission-critical systems 
and how to remediate them, and so there has been quite a lot of 
interaction with the NRC on that.
    Mr. Horn. Is there--well, have people from the Department 
of Energy looked at some of the reactors that still exist in 
Ukraine and in Russia? Now, as I'm told, there's a different 
type of reactor normally than what we have in the United 
States--let's say in Illinois. Is that true, there's a 
difference here?
    Mr. Jhirad. Yes, it's true. And we have looked at that and, 
in fact, one of our national labs has produced a report on 
that, which we would be very happy to provide the committee.
    Mr. Horn. Well, we'd be delighted, and at this point in the 
record we'll put it.
    The reason I raised that, just to finish that question, is 
I don't know--I'll have to ask Mr. George, the staff director, 
if I've still not received an answer from the NRC on our 
questions----
    [Question asked of staff off the record.]
    Mr. Horn. We have an answer now. Well, the issue with us 
and the Nuclear Regulatory Commission was that they said, 
``Well, we're only going to look at 10 percent of the U.S. 
reactors,'' and we said, ``How about looking at 100 percent?'' 
Then we got into a conversation about how our reactors are 
different and you don't have to worry about them and don't 
worry about what goes on in Europe and so forth. So I'm just 
curious where the Energy Department stands. Do we have a total 
audit of our own reactors, or do we just let them do 10 percent 
of it?
    Mr. Jhirad. On the domestic reactor situation, Mr. 
Chairman, I'd have to get back to you on that.
    Mr. Horn. OK. Well, I'd be interested to know if there is a 
position you have on when you're auditing what's going on in a 
particular reactor and how much that is done by the Department, 
as opposed to the Nuclear Regulatory Commission.
    Mr. Jhirad. I can get back to you in writing on that.
    Mr. Horn. Fine.
    Mr. Jhirad. I know that it's largely an NRC responsibility.
    Mr. Horn. We'll save a space in the record, without 
objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED]61205.014
    
    [GRAPHIC] [TIFF OMITTED]61205.015
    
    [GRAPHIC] [TIFF OMITTED]61205.016
    
    [GRAPHIC] [TIFF OMITTED]61205.017
    
    [GRAPHIC] [TIFF OMITTED]61205.018
    
    [GRAPHIC] [TIFF OMITTED]61205.019
    
    [GRAPHIC] [TIFF OMITTED]61205.020
    
    [GRAPHIC] [TIFF OMITTED]61205.021
    
    [GRAPHIC] [TIFF OMITTED]61205.022
    
    [GRAPHIC] [TIFF OMITTED]61205.023
    
    Mr. Horn. We now start the second round, and that's the 
gentleman from Oregon, Mr. Walden.
    Do you have some questions?
    Mr. Walden. Thank you, Mr. Chairman. At this point I do not 
have any questions.
    Mr. Horn. We'll now yield to the gentleman from Texas, Mr. 
Turner, to start the second round. He's got to make up for a 
few absences on his side.
    Mr. Turner. That's true. Mr. Chairman, I have to go to the 
floor, so you'll have to excuse me.
    Mr. Horn. OK. Are they voting? Let me know.
    Mr. Turner. Well, shortly they will be.
    Mr. Horn. Yes. OK. I thank the gentleman.
    I now ask the co-chairman of the task force, the 
gentlewoman from Maryland, Mrs. Morella, for further 
questioning. She did leave.
    Then we'll go to Mrs. Biggert, second round, 5 minutes.
    Mrs. Biggert. I'm still here.
    Ms. Wander, you said that your trade industry association 
represents all segments of the U.S. travel and tourism 
industry. Is there any segment of the industry that you're 
concerned about due to Y2K problems?
    Ms. Wander. Based on the inquiries we've made of our 
members, frankly, no, there's none that we're worried about, 
but we're very aware of the fact that our industry depends on 
so many others, as I think this morning's discussion has 
evidenced.
    I would point out, though, that since the survey statistics 
indicate that most travel plans are predicated on the use of 
the automobile, our concern lies at the local level around stop 
lights, automated bridges, electricity availability, and the 
like. So we would hope that the efforts at the local level are 
underway and turn out to be successful.
    Mrs. Biggert. Let's say there is a problem if someone is 
traveling--and it could be by plane, it could be by train, or 
it could be by airlines, and somebody is going from Los Angeles 
to New York, or vice versa, and there is a Y2K failure in the 
town, the place that they're going to. Is there a way to--who 
is going out and disseminating that information to people? How 
will they find out? Is there--the airlines or the airports, 
or----
    Ms. Wander. I would imagine that each of the affected 
segments--and we hope there are none, but it may happen--would 
follow two courses of action. One would be to take advantage of 
all media available--their Websites, television, radio, and the 
like--to alert travelers that there is a problem, and then 
there's the immediate difficulty that a traveler who is caught 
in the middle of a problem faces, and what we know about our 
industry's plans suggests that they would be fully staffed. 
There's very little leave that is going to be allowed for, that 
they will try to accommodate individual-by-individual to 
alleviate the problems that might be encountered.
    Mrs. Biggert. Well, it seems in the international travel we 
do have the State Department and consulates that will be 
notifying people. Is there anything that the travel industry, 
itself, would be involved in? They're the ones that have sold 
the tickets, or whatever, have planned the trip.
    Ms. Wander. It falls fundamentally, in my view, to the 
industry to take those steps to inform travelers. There is no 
national tourism office. There is no longer a U.S. Travel and 
Tourism Administration, unhappily. So the industry recognizes 
that we will need to be the ones to take care of our passengers 
and our travelers.
    Mrs. Biggert. Thank you.
    Mr. O'Keefe, in one of the areas that I think is very 
popular for travel, particularly at this time to get out of the 
cold weather, is the Caribbean. Is this an area that is of 
concern as far as travel there? Are most of the countries ready 
for Y2K, according to--I know, like, St. Lucia, they say they 
are somewhat prepared to deal with the Y2K problem, or St. 
Vincent and the Grenadines. Would you recommend--and then 
certainly St. Kitts and Nevis, which are still rebuilding from 
the hurricane. Is this an area that is recommended for travel 
at this time?
    Mr. O'Keefe. Well, the travel--the consular information 
sheets have sort of country-by-country, and so individual 
travelers should take a look and make a judgment based on that 
information.
    In terms of overall regional preparedness, I would say that 
there is a U.S. Information Agency and State Department-
sponsored gathering of Y2K coordinators for the Caribbean in 
Miami next week just to go over this same--this very issue, 
where we will--again, it is an information gathering and also 
information giving kind of activity.
    Perhaps Mr. Herbert, who is the managing director of the 
Office of Overseas Citizens Services in our Consular Affairs 
Bureau could add to that.
    Mr. Herbert. I would just comment that I think we have a 
greater concern about areas that will be involved in a winter 
situation than we do in the Caribbean. Obviously, 
inconveniences in the Caribbean are one thing, lack of heat in 
a cold climate is something else. So I'm somewhat reassured 
that the people in the Caribbean will be perhaps 
inconvenienced, but not in a serious way.
    Mrs. Biggert. So it might be better to go sailing than 
skiing over the vacation.
    I guess the problem to me probably would be the travel, 
too, which is usually the most difficult to that area, but once 
you get there how you get back might be the--would you say that 
that might be more of a major problem?
    Mr. Herbert. I think in all of this that being able to go 
and come is a significant portion of the whole picture, no 
matter where you are. If it is cold and you are not adequately 
heated, you'd want to get on a plane and leave. But I'll leave 
that to the Department of Transportation, FAA, to address that, 
which they are doing separately.
    Mrs. Biggert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Horn. We thank you.
    Let me just get on the record, for the average American 
citizen that is going to do travel anywhere, you have an 800 
number at the Department of State. How do they know where to 
access that? Is it in their friendly local telephone book under 
Federal agencies, or how many beeps have you got into your 800 
line?
    Mr. Herbert. Our primary point of contact with the public 
is our Website, and we get 300,000 hits a day on there. We have 
an 800 number. In times of crisis it's announced on CNN, et 
cetera, if you need information. So if we get into a crisis 
mode on Y2K, we will certainly have an 800 number. Normally, we 
have lots of calls into our office in the course of a day, lots 
of people checking out our Website.
    Mr. Horn. Can you give us the 800 number now, for those of 
us that occasionally travel?
    Mr. Herbert. It's only activated when the crisis occurs, 
and it is one that is assigned to us. I don't know what it 
would be at this time. I'm sorry.
    Mr. Horn. So the average citizen really has no way to know 
unless it is a crisis, and they are usually military crises. 
I've been in countries when that has happened, and----
    Mr. Herbert. We have a standard number for emergencies that 
people use all the time. That is 202-647-5225. That is into my 
office, the Office of Overseas Citizens Services.
    In terms of----
    Mr. Horn. Is that the 300,000 calls a day that come into 
your office?
    Mr. Herbert. The 300,000 are hits on our Website.
    Mr. Horn. Yes, on the Website.
    Mr. Herbert. Right.
    Mr. Horn. OK. What's the Website number?
    Mr. Herbert. It's http://travel.state.gov. And our Website 
has links to several hundred other Y2K-related Websites, also, 
so that a person who comes to our site can access all kinds of 
information on Y2K from a multiple number of sources.
    Mr. Horn. Well, one of the things that interested me was 
your consular information sheets, which provide a very good 
snapshot, I think, of the country's readiness.
    In the case of Italy, we know from the public record of 
newspapers, people traveling there, so forth, that here we have 
a major industrial democracy and they've often been reported as 
being terribly behind in their year 2000 efforts. However, your 
information sheets report that Italy's risks are somewhat 
minimal.
    To the contrary, the United Kingdom has been very 
forthcoming in reporting its year 2000 readiness; yet, if you 
read the United Kingdom's report, you could be led to believe 
that the United kingdom poses a greater travel risk than Italy.
    So what is the citizen who taps into these Websites--what 
is to be made of it all, including the United States, by the 
way, why, since the United Kingdom also says about us that if 
there are--there might be disruptions in the United States--and 
these aren't political ones. It's the water supply, small 
airports, and small health facilities.
    So that's their picture of us, which we probably ought to 
say, Ms. Wander, have we got any lessening of travel between 
the United Kingdom and the United States?
    Ms. Wander. Any less?
    Mr. Horn. Yes. I mean, they're saying if you turn into 
their Website, apparently they say we've got a problem, several 
problems--water supply, small airports, and small health 
facilities. Do you agree with that in the State Department 
about the U.S. situation? Should people not come here or what? 
Or is that just off base?
    Mr. Herbert. Our office doesn't--our office has the rest of 
the world, not the United States.
    Mr. Horn. I know.
    Mr. Herbert. We couldn't assess on people coming here. They 
don't look to use for that information. I'm sorry.
    Mr. Horn. So what about it?
    Ms. Wander. We are not seeing lessening of advanced 
bookings, at least in terms of people's plans right now from 
the U.K.
    Mr. Horn. Yes. Well, I'm interested in the State 
Department's foreign operations, where they're looking at 
countries other than the United States. What's the best way to 
get that to your travel agents, to travel coordinators, travel 
planners? How do you do that? And is the State Department doing 
that? How do you access that? We're finding difficulty even 
finding the number for the 800 situation. We'll get that, I 
hope, before the end of the day.
    But what do you do? The average citizen says, ``Hey, I'm 
traveling. I'm spending my $2,000 and I don't want to be in a 
situation where I'm like young students waiting for a lesser 
price on the plane and jamming an airport or having some coup 
take place.'' That I understand and everybody does. They can 
read about that on CNN. But what would you advise State 
Department to tell? And how do you get the message to your 
people?
    Ms. Wander. I'm speculating here just a little bit, but, by 
way of suggestion, you know, increasingly Americans are doing a 
lot of their own research and a lot of their own bookings for 
their travel plans. Travel agents are taking on a different 
role. They're not going to disappear from the face of the 
earth, but a different role.
    What we find is that it's the Internet, the Internet, the 
Internet, and what is going to be necessary in times of crisis 
or any time that we, as a Nation, need to put out a warning is 
that we need to be able to communicate with people 
electronically, because that's where they're looking for the 
information for travel plans.
    Mr. Horn. Well, we have an 800 number for Social Security, 
for example. There's about a 7-minute wait, but we check all 
these because when they come in as witnesses they always say 
the wonderful things they're all doing.
    Now, it sounds like, with a 202 number, the State 
Department does not have an 800 number. Is that incorrect or 
what?
    Mr. Herbert. We do not have a full-time 800 number, that's 
correct, in the Bureau of Consular Affairs for assistance.
    Mr. Horn. Yes. Well, wouldn't it be a good idea for the 
State Department to easily provide information when people want 
it? And why don't you have an 800 number? I don't know what it 
costs, but they ought to ask the Appropriations Committee. 
They're up here for everything else. They might as well get an 
800 number for the U.S. citizens that are paying the bills.
    So what do you think? Are you going to go home and get an 
800 number?
    Mr. Herbert. Well, I'll certainly raise it, sir.
    Mr. Horn. Thank you.
    Mr. Herbert. I can promise you that.
    Let me point out, though, in everyone's passport, all 
Americans who have a passport, the number that I mentioned 
before, 5225, is in there as the point of contact, and they can 
get access to all of our information there, recorded 
information, if they want to hear it. The same consular 
information sheets are available. We have auto-fax. So there is 
a point of contact.
    Mr. Horn. So it's that 202-647-5225 number?
    Mr. Herbert. That's correct.
    Mr. Horn. OK. Well, that's a start, but it would be nice, 
since the taxpayers are paying all your bills, it would be nice 
if you had an 800 number to thank them and give them real 
access through real data, because the problem here is you have 
rumors around, and I know you confront that daily in all of 
your lives here, but the way to get at rumors is to get the 
truth out there and have people be able to access it.
    So I would hope that that's one of the things that we'll do 
in all agencies. I don't know where Energy is on that, whether 
you need an information flow. But, given the events of recent 
months, it might be a good idea. Indeed, it might be a good 
idea if every agency had their own 800 number so people could 
be better informed.
    And, since this is the subcommittee that has to do with the 
Freedom of Information Act, we feel very strongly on releasing 
information and not just locking it up for the scholars to 
write about 20 years from now or 50 years from now.
    So let me just ask you about the American Airlines 
situation. They announced recently that they will not operate a 
full schedule on New Year's Eve, but insisted that reduced 
demand, not year 2000, was the reason. And I'm just curious, in 
terms of the travel industry, Ms. Wander, what can you tell us 
about New Year's Eve generally in this country. Is it pretty 
low? What do you know about it?
    Ms. Wander. I can't comment, because I don't have any 
information relative to American's recent statement, nor do I 
have access to the proprietary information of any of the 
companies, but, in our discussions--and we stay pretty close to 
our members on this about what are--what the advanced bookings 
show--they would not at this point show a dropoff for this 
point in the year----
    Mr. Horn. Right.
    Ms. Wander [continuing]. Vis-a-vis last year.
    Mr. Horn. Generally, what's your feeling as to when people 
ordinarily, if they were on a January 1st millennium-type 
vacation or something, when would they basically go about 
thinking of making an order on that and putting cash up or your 
credit card or whatever?
    Ms. Wander. Unless it is a mega trip, we're finding that 
people are booking, in general, closer and closer to the dates 
of departure. Thirty days out would be very typical for most 
trips. I would imagine that for something having to do with the 
millennium, where there are a lot of trips--cruises and the 
like--that are already sold out, that anyone today who still is 
thinking about doing something better act within the next 30 to 
45 days if they really want to take the trip that they want to 
have. Waiting 30 days out will, I think, cause them to be 
disappointed for the millennium.
    Mr. Horn. I just wonder if Mr. Ose or Mr. Walden have some 
comments on that, because you're all the ones that started 
this, so go ahead.
    Mr. Ose. Well, I'm happy to get in the middle of a fight 
with you.
    I do have some concerns about that. I have siblings who use 
the Internet to book their stuff. They are very focused on 
price and they negotiate--I mean, they take six stops to get to 
their ultimate destination, so I'm aware of the shrinking of 
the advance planning portion of travel.
    One of the things that you just mentioned having to do with 
the cruise ships was of particular interest to me. I don't know 
how it is from a statistical standpoint, but anecdotally I 
would say that there's probably more Americans on cruise ships 
than there are any other nationality.
    From the travel industry's standpoint, my first question 
would have to do with the perception or the reality of the 
travel industry's readiness for Y2K. I mean, if you've got a 
big boat out on the water, are you prepared? And then, 
secondarily, I want to go back to--I'm sorry, Mr.----
    Mr. Herbert. Kevin Herbert.
    Mr. Ose [continuing]. Herbert, and I want to--is this up on 
your Website? Is this information--this is the consular 
information sheets, so----
    Mr. Herbert. Consular information sheets are up on the 
Website.
    Mr. Ose. How often are--while she's getting the answer, how 
often are these updated?
    Mr. Herbert. Periodically through--any time there is a 
change, we insert the change. Sometimes we have a couple of 
small changes and we put them in at once. This is the first 
time we've done them all at one time.
    There is not a day during the year when they are all 
changed. This is a unique experience in that we added Y2K and 
reissued all of them.
    Mr. Ose. You reissued all the advisories.
    Mr. Herbert. They were reissued as of yesterday. Right. And 
they all contain for the first time specific Y2K language for 
each country.
    Mr. Ose. Right. And these are on your Website?
    Mr. Herbert. Yes. The consular information sheets are on 
the Website, yes.
    Mr. Ose. As far as the updating, I mean, is it a reactive 
thing, or is it something that you look at in anticipation of 
needing to update information periodically?
    Mr. Herbert. Well, any time a situation changes in a given 
country that's of concern to the traveling American public, we 
will add it to the consular information sheet. Sometimes 
there's a minor change, some immigration formality changes in 
some way that we want to change, or road conditions, we have a 
report of a certain area that perhaps is not safe. We will add 
that.
    Sometimes you have a couple of weeks go by before you have 
a few things and you put in there and revise it, but anything 
that's urgent or important we can do immediately by a public 
announcement, or we revise the consular information sheets.
    Mr. Ose. So on a case-by-case basis the level of urgency is 
determined? I mean, obviously an earthquake is far more urgent 
than, you know, a stop sign has been knocked down kind of 
thing.
    Mr. Herbert. If we had an earthquake, we'd put out a public 
announcement immediately to warn people that there is a given 
circumstance in this country that's occurring now, and that 
will be a public announcement lasting a week or a month or 2 
months or what have you.
    If we had an incident where someone was robbed in a certain 
area or murdered, and then the next week there was another, and 
2 weeks later was another, we would then revise the consular 
information sheet to say that this particular area in this 
country seems to be an unsafe area for Americans and to avoid 
it.
    Of course, every day we get reports of acts like this all 
over the world. It's when we see a trend or an area to specify 
that we would put it in the consular information sheet.
    Mr. Ose. Of particular--the reason I'm bringing this up, of 
particular concern to me is the timeliness of that information, 
because your State Department is going to hear about these 
issues far sooner than it will be in the general media, and all 
of us up here have a very distinct responsibility. We 
understand who our masters are, if you will, and I want to make 
sure that we get that information out in a very timely fashion, 
so I am particularly pleased again to see these on the Website.
    Now, Ms. Wander, I want to go back to the cruise ship----
    Mr. Horn. Would the gentleman yield for a 15-second 
interjection?
    Mr. Ose. Certainly.
    Mr. Horn. On his very point, as I remember in TWA 800, the 
embassy had posted on its bulletin board that you should not 
really use that flight if you are embassy personnel, but the 
average citizen who was over there that went on board, they 
didn't have that information. So the question really is, when 
people are in a foreign country and moving on U.S. aircraft, in 
this case, how are we going to get that message out? Should 
people simply check with every embassy, and would they give 
them that? Or would they just withhold it for their own 
personnel and not the taxpayers?
    Mr. Herbert. I think you're referring to the PanAm 103 
crash, sir.
    Mr. Horn. Was it?
    Mr. Herbert. Yes, sir. Since that time, the no double 
standard policy has been adopted 100 percent. If we ever have 
information on a threat to Americans abroad, official or 
otherwise, we immediately make that known through a travel 
advisory--a travel warning, sorry, a public announcement.
    That incident that you're describing I don't believe could 
ever happen again, sir.
    Mr. Ose. I would just like to follow on to the chairman's 
fundamental point, and that is that there is a threat to 
Americans, if there is a chance that they are vulnerable or 
exposed, it is my objective to get that information out in the 
public domain.
    Now let me go back to--no, I'm not going to go back. Mr. 
Chairman, my time has expired, and I was over time last time.
    Mr. Horn. Go ahead.
    Mr. Ose. Are you sure?
    Mr. Horn. Yes.
    Mr. Ose. All right. I want to go back to the cruise ship 
thing. These are large pieces of equipment floating in the open 
seas. Their captains are maneuvering among sand bars and reefs 
and islands and what have you. If they are in the Caribbean, 
for instance, or if the South Pacific, the travel industry's 
perspective, what information can you share with us as to the 
readiness of this industry as it relates to the embedded chips 
that they use to run the equipment, so to speak?
    Ms. Wander. I can share only, Congressman, the anecdotal 
information that we've collected from our member companies. 
They believe that they are ready. We won't find any information 
about Y2K, by the way, on their trade association's Website. We 
looked as recently as last evening. There was nothing on it. So 
they are not--we can't say that they're doing a good job of 
communicating to the consumer, but they do have, again, strong 
advance bookings. Of those who are planning to travel over the 
millennium weekend, 7 percent at least are cruising. That's 
always a strong season for that business, and that will amount 
to over 2 million U.S. citizens who will be cruising.
    Mr. Ose. 2 billion?
    Ms. Wander. 2 million. Over 2 million. I can only tell you, 
though, that, in terms of their readiness, anecdotally, based 
on their representations to us, they believe they will be 
ready.
    Mr. Ose. All right, so if I might finalize, then, the 
airlines, the domestic airlines, U.S. domestic airlines, are 
well prepared; the cruise industry is well prepared; we have 
anecdotal information that there are, at least in the airlines, 
some disparity in bookings this year versus last, even though 
the cruise ship industry is still strong; we have a place where 
we can go and get official Government information on the status 
in various countries; and we have a list of the 35 countries 
that haven't yet responded to our circular request as to the 
status that they will enjoy accordingly.
    Now, my final question--Mr. Chairman, I appreciate your 
benevolence--these 35 States that have not responded, what's 
being done to followup and actually encourage them to respond?
    Mr. O'Keefe. The FAA has written an instruction to our 
embassies to go to the host governments to say, ``Please 
respond to this.'' Clearly, it is in their self interest to 
respond, because if they stay on the list then they will feel 
the effects in terms of not simply tourism but business 
travelers being reluctant to come to those countries.
    Mr. Ose. Actually, this list is only a circular. It does 
not speak to whether or not--let's not mistake this list as 
saying these people--the people that aren't on this list are 
fully compliant or fully prepared.
    Mr. O'Keefe. Right.
    Mr. Ose. Let's not make that mistake. This is just a list 
of people who haven't responded.
    Mr. O'Keefe. That's right. I think it is to the ICAO self-
assessment request, and that yes, there have been a number of 
countries that have responded. It doesn't mean that those who 
have responded are compliant or it doesn't answer the question 
of safety, which I think the FAA will take up toward the end of 
this month, but, nevertheless, if, in fact, a country hasn't 
responded, that sends a message, as well.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Horn. You are quite welcome. A good list of questions.
    Let me ask Mr. O'Keefe, you've looked at all these sheets 
that have been put out now by the consulars. What's the worst 
case in the world we have on our hands in terms of Y2K, if you 
look at all those sheets? What's the worst case?
    Mr. O'Keefe. Well, Mr. Chairman, as I mentioned earlier, it 
wasn't a score card and we didn't really rank order, but I 
would describe conditions that might prevail in countries that 
are experiencing winter, and I would say that, in terms of high 
risk, what Dr. Jhirad pointed out, we have countries in eastern 
Europe with fragile electric power distribution systems who 
will be in the grip of an eastern European winter, and I think 
that tends to be a high-risk kind of situation.
    Mr. Horn. Well, I agree with you. We've used that example 
on a number of hearings, and I'd just like to ask Dr. Jhirad, 
you have the gas coming from Russia into eastern Europe, 
central Europe, to some degree, and that's what is going to 
keep people warm, and if it doesn't come they are going to be 
freezing. To what degree does the Department of Energy share 
that assessment? And are there any plans with some of those 
countries, in terms of other types of heat or energy that can 
be utilized, because January 1st is a high point for freezing. 
I've been in Moscow on that day and I well know what the cold 
is like.
    Mr. Jhirad. Mr. Chairman, the results of the next meeting 
with the Russians, Ukrainians, and central Europeans will be 
quite critical, because we will get to the heart of this 
question of what are the contingency plans if the gas flows 
into central and even western Europe are interrupted because 
of, say, a power failure that affects the compressors. How long 
will that last and what are the contingency plans to keep 
people warm when that happens?
    And I think that's exactly the kind of information we will 
get at this meeting, and we will clearly make that public as 
soon as we have it.
    Mr. Horn. Well, we have been told, just in general, when we 
got into this a number of months ago, that there are real 
problems--and I'm not saying this is the Russian gas problem, 
but when you're dealing with petroleum and gas and et cetera, 
different types of energy like that, you have microchips that 
are often in the pipeline system, that are in the refiner's 
ship--not refiner's ship, but the petroleum-carrying ship, and 
also in the refinery. And I just wondered to what degree that 
seems to be a problem, and are they worried about the microchip 
aspect of it and how that could go awry.
    Mr. Jhirad. Mr. Chairman, does your question refer to the 
situation again in western Europe, or----
    Mr. Horn. Well, you can refer it. I just wonder is there 
any other situation like that in the world, and in terms of 
just what a computer might do if it misfires and it goes in one 
direction versus the one somebody thought it was going. And I 
don't know to what degree we've been able to help people with 
expertise of the Department of Energy, so that's what I'm 
fishing for, I guess.
    Mr. Jhirad. Yes. When--in the series of workshops that 
we've had with the International Energy Agency, when we've been 
asked for specific technical information on how to fix embedded 
chips, say in refineries or in pipelines, what we have done is 
put them in touch with industry groups here who are working 
those issues, whether it is the American Petroleum Institute or 
the Edison Electric Institute, who are knowledgeable about 
mission-critical systems, how to fix them, and contingency 
plans.
    So in the Department of Energy, on that we've really played 
more of a catalytic role, getting those countries in touch with 
the people who are fixing the problems.
    Mr. Horn. Any comments any of you would like to make after 
hearing this dialog and discussion before you leave? Mr. 
O'Keefe.
    Mr. O'Keefe. Thank you, Mr. Chairman.
    I would like to thank you and other Members for allowing us 
to appear today, and I would stress once again, especially for 
Congressman Ose, that the Department of State has as its 
primary responsibility protection of U.S. citizens, and those 
citizens are our masters, as well, so we know exactly why your 
concern is there and we do share that concern.
    Thank you for your suggestion, Mr. Chairman, about our 800 
number.
    Mr. Horn. Thank you. I'll be glad to help get you the money 
for that.
    All right. Dr. Jhirad.
    Mr. Jhirad. Yes. I would like to thank you again, Mr. 
Chairman, very much, for giving us a chance to answer your 
questions. We certainly feel that our clients out there are the 
American public, and we take very much to heart your statement 
that any valuable information should be shared immediately so 
that they can make their own decisions, and we will follow that 
and we will also raise the issue of an 800 number in the 
Department.
    Mr. Horn. Good.
    Ms. Wander, any comments finally?
    Ms. Wander. I'd echo my fellow panelists' gratitude for 
your convening the hearing this morning and allowing us the 
opportunity to let you know where things stand in our industry 
and to again reiterate for the committee the intention of both 
the Travel Industry Association of America and its component 
members to remain vigilant on this issue and not lose sight of 
the ultimate goal, which is security and safety for travelers 
in the United States and worldwide.
    Thank you again.
    Mr. Horn. Let me ask you, the various travel groups--and 
I'm part of the Travel Caucus up here, which is just about 
everybody--when they go hold a dinner, I think they've got to 
get the biggest hall in town. But do you, that represent pieces 
of the travel and convention industry, do you meet in 
Washington and share ideas to see if everybody is sort of 
moving in the same direction, or do they have a piece of 
information nobody ever dreamed that they have and is useful to 
questions like the ones that have been raised this morning?
    Ms. Wander. There are meetings held. This is an industry 
that loves meetings, because it promotes travel.
    Mr. Horn. Right.
    Ms. Wander. Meetings----
    Mr. Horn. But just to get from K Street to L Street maybe 
is all we're asking.
    Ms. Wander. We hold meetings all over the United States. In 
fact, next month, beginning on October 20th, we will hold our 
marketing outlook forum, where all of the segments come 
together and report in on what's happening and what they see 
for the upcoming year, and there are a number of events, not 
quite of that magnitude, but like those which we hold in cities 
that our members sponsor. So we do stay on top of it, as well 
as on the telephone and the computer and so forth.
    Mr. Horn. Maybe you can tell our friends in the mother 
country of the United Kingdom that they don't have to worry 
about our water supply, our small airports, and small health 
facilities, whatever they meant by that. Anyhow, that's what's 
on their Website.
    I want to thank you all for coming, and I now want to thank 
the staff. Staff director for Government Management, 
Information, and Technology is Mr. George, who is standing 
against the wall so he can take in the whole room; and the 
gentleman on my left, your right, is the one that prepared this 
hearing, Matt Ryan, the senior policy director for the 
subcommittee; Bonnie Heald is the next one against the wall, 
communications director and professional staff member; and Chip 
Ahlswede is the one that moves microphones and makes sure the 
place works, so he's the chief clerk; and then Mr. Caceres, an 
intern; and Deborah Oppenheim is another intern with us. And 
for Mrs. Morella's committee, Technology Subcommittee of 
Science, we have Jeff Grove, the staff director; and Ben Wu, 
professional staff member; and Joe Sullivan; staff assistant; 
and for Mr. Turner's staff, the democratic staff, we have Trey 
Henderson, minority counsel; Jean Gosa, staff assistant; and 
the Technology Subcommittee Group would have also Michael 
Quear, the professional staff member; Marty Ralston, the staff 
assistant; and our court reporter this morning is Mark McCarty.
    We thank you all for coming. You've all done a fine job, 
and this hearing is now adjourned.
    [Whereupon, at 11:47 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

                                   - 

</pre></body></html>
